    The Net Present Value Test’s Impact on the
     Home Affordable Modification Program




SIGTARP 12-003                            June 18, 2012
                    Office of the special inspector general
                         For the Troubled Asset Relief
                                                Relief Program
                                   1801 L Street, NW, 4th Floor
                                      Washington, D.C. 20220




                                          June 18, 2012


MEMORANDUM FOR:             The Honorable Timothy F. Geithner – Secretary of the Treasury

FROM:                       Ms. Christy L. Romero – Special Inspector General
                            for the Troubled Asset Relief Program

SUBJECT:                    The Net Present Value Test’s Impact on the Home Affordable
                            Modification Program (SIGTARP 12-003)


We are providing this report for your information and use. It discusses the Home Affordable
Modification Program’s net present value test.

The Office of the Special Inspector General for the Troubled Asset Relief Program conducted
this audit (engagement code 019), under the authority of Public Law 110-343, as amended,
which also incorporates the duties and responsibilities of inspectors general under the Inspector
General Act of 1978, as amended.

We considered comments from the Department of the Treasury when preparing the report.
Treasury’s comments are addressed in the report, where applicable, and a copy of Treasury’s
response is included in the Management Comments appendix.

We appreciate the courtesies extended to our staff. For additional information on this report,
please contact Mr. Kurt W. Hyde, Deputy Special Inspector General for Audit and Evaluation
(Kurt.Hyde@treasury.gov / 202-622-4633), or Ms. Kimberley A. Caprio, Assistant Deputy
Special Inspector General for Audit and Evaluation (Kim.Caprio@treasury.gov / 202-927-8978).




SIGTARP 12-003                                                                         June 18, 2012
The Net Present Value Test’s Impact on the
Home Affordable Modification Program


Table of Contents
Introduction ................................................................................................................................................. 1
Background ................................................................................................................................................. 4
The Discretion Treasury Gave to Servicers To Add a Risk Premium to the Discount Rate
    Reduced the Number of Homeowners Who Get Help in HAMP, According to SIGTARP’s
    Sample................................................................................................................................................... 7
Servicers in SIGTARP’s Sample Erred Inputting Homeowner Information in the NPV Test and
    Did Not Maintain Sufficient Documentation of the NPV Inputs ....................................................... 10
Servicers in SIGTARP’s Sample Communicated Poorly to Homeowners on the Denial of a
    HAMP Modification ........................................................................................................................... 12
Treasury Must Ensure Servicers Appropriately Apply the NPV Test To Assess Homeowners for
    HAMP ................................................................................................................................................. 13
     Freddie Mac’s Review of HAMP Servicers ..................................................................................... 13
     Treasury’s Oversight of Servicers’ Performance and Compliance, and Freddie Mac as the
       HAMP Compliance Agent ............................................................................................................ 13
Conclusions ............................................................................................................................................... 16
Recommendations ..................................................................................................................................... 20
Management Comments and SIGTARP’s Response ................................................................................ 21
Appendix A ‒ Scope and Methodology .................................................................................................... 22
     Limitations on Data .......................................................................................................................... 24
     Use of Computer-Processed Data .................................................................................................... 24
     Internal Controls ............................................................................................................................... 25
     Prior Coverage.................................................................................................................................. 25
Appendix B – The Home Affordable Modification Program’s Net Present Value Model ...................... 26
Appendix C ‒ Acronyms and Abbreviations ............................................................................................ 28
Appendix D ‒ Audit Team Members........................................................................................................ 29
Appendix E ‒ Management Comments .................................................................................................... 30




SIGTARP 12-003                                                                                                                     June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                         1




                      Introduction
                      Faced with record numbers of foreclosures, Congress intended for the Troubled
                      Asset Relief Program (“TARP”) to help families keep their homes. In
                      February 2009, the U.S. Department of the Treasury (“Treasury”) announced
                      TARP’s signature housing program, the Home Affordable Modification Program
                      (“HAMP”), under which mortgages would be modified to a payment that is
                      “affordable” and “sustainable.” Originally announced as a program that would
                      help as many as 3 million to 4 million homeowners avoid foreclosure, as of
                      March 2012, only 794,748 homeowners were in a permanent mortgage
                      modification, approximately half of which are funded by TARP.1 According to
                      testimony by Phyllis Caldwell, Treasury’s former Chief of the Homeownership
                      Preservation Office (“HPO”), Treasury designed HAMP on four core principles:
                      affordability, pay for success, a net present value (“NPV”) test, and help for
                      unemployed borrowers.2 This report addresses the NPV test.

                      The NPV test is the gateway through which an otherwise eligible homeowner gets
                      help under HAMP. A mortgage servicer3 first determines a homeowner’s
                      eligibility based on whether the homeowner is in default or at risk of imminent
                      default, and whether the home is an owner-occupied, single-family, one- to four-
                      unit property with a maximum unpaid principal balance of $729,750 (for one
                      unit).4 The mortgage servicer must take several steps5 to lower the borrower’s
                      monthly mortgage payment to 31% of the borrower’s monthly gross income. If a
                      homeowner meets these eligibility criteria, the decision of whether a homeowner
                      must be approved for HAMP rests on the results of the NPV test. Based on
                      Treasury data as of March 2012, approximately 5% of 3.2 million homeowners
                      denied for HAMP were denied based on the NPV test. This represents 160,870
                      homeowners6 who did not get help from HAMP.

                      A key to understanding the NPV test is to know that it estimates whether it is in
                      the best interests of the investor to modify a mortgage under HAMP. Servicers




1
  The rest are funded by the Federal National Mortgage Association (“Fannie Mae”) and the Federal Home Loan
  Mortgage Corporation (“Freddie Mac”).
2
  Throughout this report, the terms “homeowner” and “borrower” are used interchangeably.
3
  A mortgage servicer collects payments from the borrower and administers the loan. The servicer may be the lender or
  may be a specialized company under contract with the lender or the investor who owns the loan.
4
  In March 2012, Treasury changed the name of HAMP to HAMP “Tier 1” and announced HAMP “Tier 2” effective
  June 1, 2012. The described criteria apply to the original HAMP.
5
  The steps may include adding accrued interest due and late fees to the principal of the mortgage, reducing the interest
  rate, extending the term of the mortgage, and forbearing principal. For a more complete explanation of the NPV model
  and test, see Appendix B.
6
  This number includes private mortgages as well as Fannie Mae and Freddie Mac mortgages.




SIGTARP 12-003                                                                                                 June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                             2




                       enter 44 inputs7 (39 of which are specific to the NPV decision) into the NPV test.8
                       The NPV test compares the expected cash flow from a modified loan with the
                       expected cash flow from the same loan with no modification to determine which
                       option is likely to be more valuable to the investor. If the NPV test estimates that
                       modifying a mortgage will result in more revenue for the investor than not
                       modifying the mortgage (described as a positive NPV result), the servicer must
                       offer a HAMP mortgage modification to the homeowner.9 If the NPV test
                       produces a negative result, a servicer has the option of modifying the mortgage
                       under HAMP if the investor consents.

                       Because the NPV test is a linchpin in an otherwise eligible homeowner’s HAMP
                       application, Treasury guidelines require that servicers maintain documentation on
                       their NPV inputs. If a servicer turns down a homeowner for HAMP, within
                       10 business days it must send a letter to the homeowner explaining the reason for
                       denial and describing other foreclosure alternatives. If the NPV test was the
                       reason for the denial, the servicer must include 33 specific inputs that were used
                       in its NPV test.10 Homeowners can request that the servicer rerun the NPV test if
                       they believe one of the inputs is incorrect. The Dodd-Frank Wall Street Reform
                       and Consumer Protection Act (“the Dodd-Frank Act”) required that Treasury
                       make a web-based NPV calculator available to the public, which Treasury did on
                       May 23, 2011, at www.CheckMyNPV.com. Homeowners can enter into the
                       calculator the NPV inputs listed in their denial letter or substitute those with other
                       inputs.

                       Senator Jeff Merkley and eight other senators requested that the Office of the
                       Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”)
                       review whether servicers are correctly applying NPV to determine which
                       homeowners qualify for HAMP.11 SIGTARP began a review to assess the issues




7
   The NPV model uses three types of inputs: user inputs such as borrower and loan information; servicer-defined inputs
   such as risk premium, modification fees, and mortgage insurance partial payment amount; and the terms of the
   proposed HAMP modification.
 8
   Treasury has given servicers discretion to adjust the value used for three of the variables: (1) modification fees such as
    notary or property valuation fees; (2) mortgage insurance; and (3) the risk premium. The NPV test also contains
    12 assumptions, which are estimates or predictions about various mortgage characteristics that are factored into the
    NPV calculations. Treasury sets these assumptions based on Fannie Mae’s, Freddie Mac’s, and the Federal Housing
    Finance Agency’s analysis of mortgage data, including, for example, the probability a homeowner will default using
    standard redefault rates; home price projections (based on 110 local housing markets); and the time and costs
    associated with a foreclosure.
 9
   The scenario under which the mortgage is not modified assumes the borrower either becomes current on the mortgage
    payments without a modification or the borrower goes into foreclosure.
10
    Inputs as specified in the Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages include
    information such as gross income and the co-borrower’s credit score.
11
    The other senators were Richard Durbin, Jack Reed, Herb Kohl, Sherrod Brown, Russell Feingold, Sheldon
    Whitehouse, Mark Begich, and Maria Cantwell.




SIGTARP 12-003                                                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                     3




                  surrounding the NPV test that have posed challenges to HAMP’s success, as well
                  as the following objectives:

                      whether the servicers correctly applied the NPV test under the program;
                      the extent to which Treasury ensured that servicers appropriately applied the
                      NPV test per HAMP guidelines when they assessed homeowners for program
                      eligibility; and
                      the procedures servicers followed to communicate to homeowners the reasons
                      they were denied HAMP mortgage modifications, as well as to identify the
                      full range of loss mitigation options then available to those homeowners.

                  In conducting this audit, SIGTARP gathered information from Treasury and its
                  financial agent, the Federal Home Loan Mortgage Corporation (“Freddie Mac”),
                  in its role as compliance agent for HAMP. SIGTARP also examined the
                  application of the NPV test by three of the largest servicers participating in
                  HAMP: Wells Fargo Bank, NA (“Wells Fargo”); GMAC Mortgage, LLC
                  (“GMAC Mortgage”); and Ocwen Loan Servicing, LLC (“Ocwen”). From these
                  servicers, SIGTARP judgmentally selected 149 homeowner applications to
                  determine the impact that the NPV test had on whether these homeowners
                  qualified for HAMP. SIGTARP also asked those three servicers and four
                  additional servicers ‒ Bank of America, NA (“Bank of America”), CCO
                  Mortgage, JPMorgan Chase Bank, NA (“JPMorgan”), and Saxon Mortgage
                  Services, Inc. (“Saxon”) ‒ for their rationale or analysis for using the risk
                  premium. SIGTARP conducted the audit from March 2010 through May 2012,
                  and in accordance with generally accepted government auditing standards as
                  prescribed by the Comptroller General of the United States. For a discussion of
                  the audit’s scope and methodology, see Appendix A.




SIGTARP 12-003                                                                             June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                             4




                         Background
                         Three TARP oversight bodies ‒ the Congressional Oversight Panel (“COP”), the
                         Government Accountability Office (“GAO”), and SIGTARP ‒ previously
                         reported on problems or concerns over the NPV test. This report involves some
                         of the same issues and concerns raised, based in part on SIGTARP’s sample
                         testing.

                         In October 2009, COP reported evidence of eligible borrowers being denied
                         HAMP modifications incorrectly, misinterpretations of program guidelines, and
                         difficulties encountered by borrowers and housing counselors in understanding
                         the NPV models, as well as the reasons that HAMP applications were being
                         denied. COP examined Treasury’s NPV model and noted that it was highly
                         sensitive to small changes. COP reported that Treasury lets servicers override the
                         default discount rate set by Freddie Mac and add a risk premium up to 250 basis
                         points (2.5%). COP reported that the discount rate impacts the present value of
                         expected cash flows. COP found that only a one basis point change in the risk
                         premium is necessary to change the outcome of the NPV test from NPV positive
                         to NPV negative. COP called on Treasury to provide greater transparency by
                         releasing its NPV model and stated that requiring servicers to give borrowers
                         specific reasons for denials “could help alleviate [lack of transparency].”

                         In March 2010, SIGTARP reported that Treasury’s many changes to the HAMP
                         NPV model from March 2009 through November 2009 posed challenges to
                         servicers. Treasury changed or clarified the NPV test eight times in 2009. Some
                         of these changes included updating key parameters in the test, such as the
                         discount rate, the cure rate, and foreclosure costs, and adding a home price decline
                         protection incentive payment to the model.12 Changes caused problems for the
                         servicers throughout the process. Servicers told SIGTARP that they encountered
                         problems accessing the NPV test early in the process and getting documentation
                         from Treasury concerning the model, and that earlier models had errors and
                         inconsistencies. In addition, servicers complained to SIGTARP that there was a
                         lack of Treasury guidance and there was confusion regarding multiple changes to
                         the model. One servicer told SIGTARP that changing the model made it
                         particularly difficult to manage version control over the model. Another servicer
                         told SIGTARP that there was a short time to comply with significant changes to
                         the model, and servicers were not notified of changes to the model until after they
                         were implemented.

12
     The discount rate is the current Freddie Mac’s Primary Mortgage Market Survey rate for 30-year fixed-rate conforming
     loans. The cure rate is the percentage of delinquent mortgages that become current because the borrowers remit all of the
     missed payments or pay off the mortgage in full. Foreclosure costs include pre-foreclosure sales, third-party sales, and other
     costs associated with foreclosure. Home price decline protection incentive payments are additional incentives for
     modifications of loans on properties located in areas where home prices have recently declined and where investors are
     concerned that prices will continue to decline.




SIGTARP 12-003                                                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                     5




                  In April 2010, COP again reported on problems and concerns regarding the NPV
                  test. COP applauded Treasury’s efforts to test its new NPV model, but stated that
                  because Treasury had still not publicly released the model for the benefit of
                  borrowers and counselors, Treasury had not made meaningful progress in
                  addressing concerns about the secrecy of the NPV model. COP also reported that,
                  although Treasury had made significant progress on establishing guidelines for
                  written communications to homeowners regarding the reasons for a HAMP
                  denial, it was unclear whether borrowers were receiving notices in a timely
                  manner. COP stated that it is important for Treasury to monitor the activities of
                  the program participants, audit them, and enforce program rules, guidelines, and
                  requirements.

                  In June 2010, GAO reported that 15 of the 20 largest servicers were not running
                  the NPV test in compliance with HAMP guidelines. GAO reported, “This lack of
                  compliance likely resulted in differences in how borrowers were evaluated, and
                  could have resulted in the inequitable treatment of similarly situated borrowers.”
                  Because servicers linked the NPV model to their own systems, GAO found that
                  values for inputs such as property values and credit scores were erroneously
                  updated during the rerunning of the NPV model. These errors were so severe that
                  Treasury required the servicers to fix the in-house models, and determined that
                  until they did so, the servicers could not deny a HAMP modification based on the
                  NPV test. GAO found that half of the servicers it sampled reported at least a
                  20% error rate for income calculations. GAO reported, “According to Treasury,
                  the number of borrowers who were denied because of a servicer’s NPV errors
                  could range from a handful to thousands, depending on the size of the servicer
                  and the extent of the error.” GAO also found that servicers’ error rates for
                  calculating borrower income were well above a servicer’s own established error
                  thresholds (typically 3% to 5%). GAO reported, “Without accurate income
                  calculations, similarly situated borrowers applying for HAMP may be inequitably
                  evaluated for the program and may be inappropriately deemed eligible or
                  ineligible for the program.”

                  In addition to errors in inputs that servicers were using in the NPV test, GAO also
                  reported concerns, similar to COP’s reported concerns, surrounding the risk
                  premium. According to GAO, Treasury allowed some differences in how
                  servicers evaluate borrowers for HAMP, which could result in inconsistent
                  outcomes for borrowers. GAO was referring to Treasury allowing servicers to
                  add up to a 2.5% risk premium to the Freddie Mac rate when inputting the
                  discount rate to the NPV model. GAO explained, “The higher the risk premium a
                  servicer chooses, the fewer the number of loans that are likely to pass the NPV
                  model, because expected future cash flows would have less value.” GAO’s
                  analysis determined that as of April 17, 2010, 11 servicers (out of more than
                  100 servicers) used a risk premium, most of them the full 2.5%.




SIGTARP 12-003                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                     6




                  The reported problems surrounding a lack of transparency in the NPV test and
                  servicer errors led to Congressional action. Section 1482 of the Dodd-Frank Act
                  required a publicly available web-based NPV calculator based on the HAMP
                  NPV model to assist borrowers in understanding the NPV evaluation process
                  under HAMP and in conducting an estimated NPV evaluation of their mortgage.
                  Congressman Mike Quigley, who sponsored the amendment to the Dodd-Frank
                  Act that required the NPV calculator, explained, “A homeowner’s fate hinges on
                  the NPV score, so the American dream is literally at stake here.”

                  In December 2010, COP reported that Treasury had come out with a new model
                  and Dodd-Frank required its public release. COP noted that several factors could
                  affect the success of the model, including the design and implementation of the
                  model, and the accuracy of the data input by the servicers into the model. COP
                  stated that Treasury still allowed servicers to add up to a 2.5% risk premium and
                  added, “The number of loans that will qualify for a HAMP modification will vary
                  depending on the risk premium a servicer uses in its NPV calculations.”




SIGTARP 12-003                                                                             June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                 7




                     The Discretion Treasury Gave to Servicers
                     To Add a Risk Premium to the Discount Rate
                     Reduced the Number of Homeowners Who Get
                     Help in HAMP, According to SIGTARP’s Sample
                     This section describes how the use of a risk premium results in fewer homeowners
                     getting HAMP modifications.

                     Despite warnings by COP and GAO that Treasury’s practice of allowing servicers
                     to add a risk premium to Freddie Mac’s discount rate results in fewer
                     homeowners being approved for HAMP, Treasury has allowed that practice to
                     continue without questioning the servicer’s rationale for adding a risk premium as
                     long as it does not exceed 2.5%. According to Treasury, the addition of the risk
                     premium reflects an additional cost that investors may face in modifying and
                     continuing to carry mortgages at risk of default. According to GAO’s June 2010
                     report, only 11 out of more than 100 servicers participating in HAMP added a risk
                     premium. SIGTARP decided to review these warnings by GAO and COP and
                     found that although some servicers initially added a risk premium, only four
                     continue to do so. It is unclear why this small number of servicers should be
                     allowed to take an action that results in fewer HAMP modifications.

                     With HAMP three years old and any risk in the program presumably known to
                     servicers, Treasury should stop letting servicers add a risk premium to the
                     discount rate used by Freddie Mac. SIGTARP surveyed seven servicers (GMAC
                     Mortgage, Ocwen, Wells Fargo, Bank of America, CCO Mortgage, JPMorgan,
                     and Saxon) to understand their rationale for use of the risk premium. Initially,
                     only GMAC Mortgage did not add a risk premium.13 Six servicers added a risk
                     premium – five added the maximum 2.5% (Bank of America, Saxon,
                     Wells Fargo, JPMorgan, and Ocwen), and one, CCO Mortgage, added 0.005%.
                     However, in late 2010 and early 2011, JPMorgan and Ocwen14 stopped adding
                     any risk premium. JPMorgan explained to SIGTARP that initially it used the
                     maximum risk premium because HAMP was new and had no performance results.
                     JPMorgan told SIGTARP that it no longer used the risk premium because
                     servicers and investors became more comfortable with HAMP over time and it
                     wanted to align its practices with Fannie Mae and Freddie Mac, which do not use
                     a risk premium.

                     The rationale of one of HAMP’s three largest servicers, JPMorgan, may apply to
                     the other servicers that continue to add a risk premium, which supports Treasury’s
13
   GMAC Mortgage told SIGTARP that it did not consider adding a risk premium and that it does not deny homeowners
   a HAMP modification solely based on the NPV result.
14
   Ocwen did not provide to SIGTARP its rationale for its decisions on how it assigned a risk premium or why it
   eliminated the use of the risk premium.




SIGTARP 12-003                                                                                          June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                            8




                        discontinuing any use of a risk premium. Bank of America, the largest HAMP
                        servicer in terms of TARP incentives, told SIGTARP that it uses the highest risk
                        premium allowed in part because investors wanted a higher discount rate, and
                        rates that are too low could be costly to investors. Wells Fargo, the second-largest
                        HAMP servicer, told SIGTARP that it uses the maximum risk premium because
                        its “cost of capital” for its largest mortgage portfolio exceeds Treasury’s discount
                        rate with the added 2.5% premium.

                        In its sample, SIGTARP found that the discretion that Treasury gave to servicers
                        to add a risk premium reduced the number of otherwise qualified homeowners
                        that Treasury helped through HAMP. SIGTARP’s analysis of 51 judgmentally
                        selected HAMP applications15 evaluated by Ocwen or Wells Fargo found that
                        more than half (27) of the homeowners would have had a positive NPV result if
                        the servicer had not used a risk premium. The following table demonstrates the
                        impact of reducing and removing the risk premium.



                           TABLE 1

                           INCREMENTAL RISK PREMIUM CHANGE SUMMARY
                                                                                       *Number of NPV
                              Risk Premium Decrease                                     Decisions That
                                                                                             Reversed
                            From                       To
                            2.5%                    2.0%                                           7
                            2.0%                    1.5%                                         10
                            1.5%                    1.0%                                           5
                            1.0%                    0.5%                                           2
                            0.5%                    0.0%                                           3
                                                                                          Total 27
                            *Note: This column shows the number of NPV test results that changed from negative to
                            positive when premium was reduced.
                            Source: SIGTARP analysis of NPV negative mortgages from the two servicers that
                            elected to use a risk premium.




                        SIGTARP’s analysis confirms that homeowners in the sample were denied a
                        HAMP modification because of the servicers’ addition of a risk premium.
                        A discount rate set by Freddie Mac is already used by more than 100 servicers in


15
     This sample of 51 loans is a subset of 149 loans that SIGTARP judgmentally selected from Ocwen, Wells Fargo, and
     GMAC Mortgage for NPV input testing. Of the 149 loans, only loans that were originally evaluated with a risk
     premium and returned a negative NPV test result were analyzed. The 149 loans were selected to represent a
     cross section of loans according to factors including geographic location, date the NPV test was run, and amount of
     unpaid principal balance. Results from a judgmental sample cannot be projected to the universe of data from which
     the sample was drawn.




SIGTARP 12-003                                                                                                      June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                       9




                        HAMP.16 Only four of the servicers in HAMP use the additional risk premium.
                        If JPMorgan and Ocwen no longer believe there is a need to add a risk premium
                        to the NPV test, it would not seem necessary for others. Treasury should remove
                        this obstacle that prevents otherwise eligible homeowners from getting help from
                        HAMP.




16
     The number of servicers participating in HAMP has changed over the course of the program. As of December 2011,
     there were 109 servicers participating in HAMP.




SIGTARP 12-003                                                                                             June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                             10




                         Servicers in SIGTARP’s Sample Erred Inputting
                         Homeowner Information in the NPV Test and
                         Did Not Maintain Sufficient Documentation of the
                         NPV Inputs

                         This section describes how three of the largest servicers in HAMP performed in
                         inputting NPV test information, according to SIGTARP’s sample.

                         Any model will be only as good as its inputs. In addition to other Treasury
                         oversight bodies, SIGTARP found in its sample that servicers made errors using
                         NPV inputs and did not properly maintain records of all NPV inputs17 during the
                         period of our review. Good recordkeeping on NPV inputs is critical for oversight
                         and to protect homeowners’ rights. Congress specifically intended that, through
                         the web-based NPV calculator, homeowners have the right to ensure that their
                         personal information was submitted correctly. A servicer’s failure to maintain the
                         NPV inputs as required by Treasury guidance thwarts the intention of Congress,
                         the ability for effective compliance and oversight, and the rights of homeowners
                         who have been denied a HAMP modification due to the NPV test.

                         Within SIGTARP’s judgmental sample of 149 applications that were reviewed for
                         HAMP modifications between 2009 and early 2011 by 3 of the largest servicers –
                         Ocwen, Wells Fargo, and GMAC Mortgage – SIGTARP found that the servicers
                         could provide both accurate inputs and documentation for only 2 of the
                         HAMP applications. SIGTARP found instances in which servicers failed to
                         comply with HAMP guidelines on maintaining records on NPV inputs. For
                         19 HAMP applications, the servicer was not able to provide all of the inputs used
                         to evaluate the homeowner for the NPV test.

                         For another 19 HAMP applications, the servicer provided all inputs used to
                         perform the NPV test, and provided documentation for all these inputs, but in
                         some cases that documentation did not support the input used. For
                         109 applications, the servicers either could not provide documentation to support
                         various inputs, or provided inaccurate documentation for various inputs. For the
                         149 denied HAMP applications, SIGTARP found that approximately 19% of the
                         inputs either were entered incorrectly or could not be supported by the servicers’
                         records. Because of the servicers’ failure to maintain documentation of the NPV
                         inputs, SIGTARP was unable to determine how many homeowners from its
                         sample may have been wrongly denied a HAMP modification.



17
     SIGTARP found errors in its sample related to credit scores, principal forgiveness, dates of NPV tests, unpaid
     principal balance, amortization, principal and interest after modification, and the type of property valuation used.




SIGTARP 12-003                                                                                                      June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                   11




                  One of the key inputs in SIGTARP’s sample where SIGTARP found errors or
                  lack of documentation was the borrower’s gross income. Despite GAO’s
                  June 2010 report about servicer errors in calculating gross income, SIGTARP
                  found servicer errors. The extent to which servicers used incorrect data increased
                  the risk of an improper decision to an unacceptable level. When servicers use
                  erroneous information in the NPV test, homeowners may be denied a HAMP
                  modification and may ultimately lose their homes.




SIGTARP 12-003                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                         12




                        Servicers in SIGTARP’s Sample Communicated
                        Poorly to Homeowners on the Denial of a HAMP
                        Modification
                        This section describes servicers’ performance in communicating with
                        homeowners in SIGTARP’s sample.

                        SIGTARP reviewed a sample of 26 denial letters sent by GMAC Mortgage,
                        Ocwen, and Wells Fargo, and found that only 2 letters were issued in compliance
                        with HAMP guidelines. HAMP guidelines require that servicers communicate a
                        denial to the homeowner within 10 business days after the decision. SIGTARP
                        found that for 4 homeowners, Wells Fargo sent the denial letter to the homeowner
                        between 32 and 147 business days (69 days on average) after Wells Fargo’s
                        decision.18 Servicers’ failure to communicate denial of a HAMP modification to
                        homeowners in a timely manner can have serious consequences because a delay
                        may prevent homeowners from finding other foreclosure alternatives sooner. One
                        homeowner was left in the dark when GMAC Mortgage failed to provide the
                        homeowner with a reason for the denial. GMAC Mortgage later offered that
                        homeowner a non-HAMP mortgage modification.

                        Of the 12 homeowners sampled who were denied a HAMP modification due to a
                        negative NPV result, 6 denial letters from 1 servicer failed to follow HAMP
                        guidelines of listing certain NPV inputs. This failure to follow HAMP’s
                        guidelines can have serious consequences because without these inputs
                        homeowners cannot use the web-based NPV calculator, required by the Dodd-
                        Frank Act, to challenge servicer errors that may have prevented their participation
                        in HAMP.

                        SIGTARP also found that the servicers failed to provide vital information on
                        foreclosure prevention alternatives to homeowners in 18 of the 26 cases
                        SIGTARP reviewed. Although 17 of the 18 letters from servicers told the
                        homeowner that there may be other loss mitigation options available or that the
                        mortgage was being reviewed for other loss mitigation solutions, the servicer did
                        not give the homeowner any information on those options. In the 18th letter, the
                        servicer did not tell the homeowner that there were other foreclosure alternatives.
                        Treasury told SIGTARP that according to a sample Freddie Mac conducted in
                        December 2011 of four large servicers – Bank of America, Wells Fargo,
                        JPMorgan, and CitiMortgage ‒ Treasury found that those servicers had made
                        improvements to denial letters.


18
     SIGTARP excluded two loans from timeliness testing. One was excluded because of the borrower’s bankruptcy
     proceeding. The other was excluded because, according to the servicer, Treasury was not allowing the servicer to
     deny modifications because of possible NPV test errors.




SIGTARP 12-003                                                                                                  June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                       13




                  Treasury Must Ensure Servicers Appropriately
                  Apply the NPV Test To Assess Homeowners
                  for HAMP
                  Freddie Mac’s Review of HAMP Servicers

                  Treasury contracts with Freddie Mac as its financial agent to conduct
                  examinations and review servicers’ compliance with HAMP’s guidelines.
                  Treasury has obligated approximately $228 million to retain Freddie Mac as the
                  compliance agent for all HAMP servicers except Fannie Mae and Freddie Mac,
                  and has paid Freddie Mac approximately $152 million as of March 31, 2012.
                  Treasury’s former HPO Chief, Phyllis Caldwell, testified before COP in
                  October 2010, “…Freddie Mac, Treasury’s compliance agent, conducts periodic
                  audits of servicers’ implementation of the [NPV] model.”

                  In addition, Freddie Mac monitors servicers for compliance with program
                  guidelines through a number of reviews, including the second look process.
                  According to Freddie Mac, in second look reviews, Freddie Mac examines the
                  reason why a borrower was denied a HAMP modification and determines whether
                  it agrees, disagrees, or is unable to determine how the servicer made the decision.
                  Freddie Mac told SIGTARP that it examines a sample of at least 100 loans from
                  each servicer in the second look process.

                  For those in the sample turned down for HAMP because of the NPV test,
                  Freddie Mac requests from the servicer all loan documentation and a list of the
                  NPV inputs the servicer used to run the test. Freddie Mac told SIGTARP that it
                  examines the supporting documentation, determines what it believes the correct
                  inputs to be, and reevaluates the loan using the NPV test.

                  Treasury’s Oversight of Servicers’ Performance and Compliance,
                  and Freddie Mac as the HAMP Compliance Agent

                  Treasury is ultimately responsible for ensuring that servicers comply with HAMP
                  guidelines. However, SIGTARP’s findings of servicer errors with the NPV test
                  and failure to comply with HAMP guidelines in SIGTARP’s sample of HAMP
                  applications through the beginning of 2011, and the more recent June 2011 poor
                  assessment results, raise serious concerns about the effectiveness of Treasury’s
                  oversight. Treasury is responsible for overseeing and monitoring Freddie Mac’s
                  compliance activities. Treasury said it approves the design of Freddie Mac’s
                  compliance program; reviews the detailed results of the servicer reviews; and
                  engages in additional oversight of a servicer if the servicer is significantly lagging
                  in its efforts to correct identified issues.

                  Treasury also monitors servicer progress with its Making Home Affordable
                  Compliance Committee meetings. According to Treasury, Freddie Mac briefs the


SIGTARP 12-003                                                                                 June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                   14




                         committee on the status of the servicers in correcting issues identified during
                         Freddie Mac’s reviews and significant issues identified as part of NPV test
                         reviews. SIGTARP reviewed committee minutes from September 2009 through
                         March 2012 and found the minutes usually included a list of participants and a
                         few bullet points. The committee’s charter states that Treasury “will also be
                         responsible for capturing the notes of the meeting with special emphasis on the
                         rationale behind any decisions … made …” Furthermore, the charter states that
                         differing points of view should be documented in instances where there is a lack
                         of consensus on issues discussed by the committee.

                         However, given the lack of detail in the minutes, SIGTARP could not find
                         evidence that the requirements of the committee’s charter were fulfilled. At the
                         meetings, Freddie Mac presents details of its reviews of servicers, including
                         results of second look reviews. Treasury told SIGTARP that it determines the
                         appropriate course of action if there are significant delays or issues with a
                         servicer’s remediation efforts. However, Treasury was unable to provide
                         documentation confirming its oversight of servicers. Treasury did not provide
                         SIGTARP documentation of actions that Treasury took as a result of Freddie
                         Mac’s review. Treasury failed to document its oversight, stating that some of its
                         oversight is conducted in such a way that there would be no formal
                         documentation. Accordingly, SIGTARP was unable to verify Treasury’s role in
                         the oversight of servicers or Freddie Mac.

                         SIGTARP and COP have called for transparency of servicer performance. In
                         March 2010, SIGTARP recommended that Treasury set performance benchmarks
                         and publicly report on them to measure over time the implementation and success
                         of HAMP. In April 2010, COP also recommended that Treasury release
                         performance metrics, the results by servicer, and appropriate, meaningful
                         sanctions or procedures to address noncompliance.

                         However, despite these calls for accountability, Treasury did not publicly release
                         information on Freddie Mac’s review of servicers until June 2011, more than
                         2 years after HAMP started, and then released information only on the reviews of
                         the 10 largest servicers.19 Treasury reported that 4 of the 10 largest servicers
                         needed substantial improvement and six needed moderate improvement. In
                         findings similar to those from GAO and SIGTARP, Treasury found that all 10 of
                         the largest HAMP servicers used erroneous gross income amounts when
                         evaluating borrowers for HAMP, with gross income calculation errors that ranged
                         from 6% to 33%.

                         Treasury’s first published assessment of the servicers raises concerns about
                         Treasury’s compliance and remediation efforts. In June 2011, for the first quarter
                         of 2011, 3 of the 10 largest HAMP servicers ranked poorly on the second look

19
     Treasury defined the 10 largest servicers as the 10 largest servicers based on HAMP activity volume.




SIGTARP 12-003                                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                  15




                       metric. That is, borrowers who should have received a permanent mortgage
                       modification were wrongly denied. Four servicers had an unacceptably high
                       number of cases where, in the second look process, Freddie Mac was unable to
                       determine, based on the documentation provided, how the servicer reached the
                       decision not to offer a permanent modification. Treasury withheld incentives
                       from three servicers, but later released the funds. It is unclear why Treasury
                       allowed large servicers to not follow HAMP guidelines without significant lasting
                       consequences.

                       Greater transparency over HAMP servicers’ failure to follow program guidelines
                       since the June 2011 servicer assessments has led to some improvements from
                       servicers. For example, seven servicers still need moderate improvement
                       according to Treasury’s most recent assessment published in March 2012, which
                       reported results for the fourth quarter of 2011. According to this most recent
                       servicer assessment, as of the fourth quarter of 2011, some servicers are showing
                       signs of improvement, but three servicers still have gross income error rates,
                       ranging from 6% to 10% of Freddie Mac’s sample, above Treasury’s established
                       benchmark of 5% and well above those servicers’ internal benchmarks as reported
                       by GAO as often set at 3% to 5%.20 Gross income is a crucial input in the NPV
                       test. Treasury’s failure to establish benchmarks and publicly report on them
                       earlier represents a lost opportunity to make these improvements earlier in
                       servicer compliance.

                       Treasury’s oversight since June 2011 appears to be focused on using the results of
                       Freddie Mac’s review of servicers to rate the servicer and determining whether to
                       temporarily withhold incentives. The most Treasury has done has been to
                       withhold TARP funds from servicers temporarily for one to three quarters.
                       Despite finding (in the June 2011 assessment) that all of the 10 largest servicers
                       required either moderate or substantial improvement more than two years after
                       HAMP started, Treasury has never permanently withheld any TARP payments or
                       clawed back any TARP funds paid to servicers for servicers’ noncompliance with
                       HAMP guidelines.




20
     GAO-10-634, “Troubled Asset Relief Program: Further Actions Needed to Fully and Equitably Implement Foreclosure
     Mitigation Programs,” June 24, 2010, p. 21.




SIGTARP 12-003                                                                                           June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                      16




                  Conclusions
                  The Troubled Asset Relief Program’s (“TARP”) signature program, the Home
                  Affordable Modification Program (“HAMP”), was designed around four core
                  principles, one of which was a net present value test (“NPV test”) that estimates
                  whether a mortgage modification is in the best interest of the investor. The NPV
                  test is the gateway through which an otherwise eligible homeowner gets into
                  HAMP. More than 160,000 HAMP-eligible homeowners have been turned down
                  for a HAMP mortgage modification by their mortgage servicer based on the
                  results of the NPV test.

                  In 2009 and 2010, three TARP oversight bodies – the Office of the Special
                  Inspector General for the Troubled Asset Relief Program (“SIGTARP”), the
                  Government Accountability Office (“GAO”), and the Congressional Oversight
                  Panel (“COP”) – reported several problems with the NPV test. These problems
                  included servicers failing to follow HAMP guidelines, servicers making errors in
                  implementing Treasury’s NPV model, servicers inputting the wrong data, such as
                  a borrower’s income, into the test, and concerns about Treasury’s monitoring of
                  its compliance agent for HAMP, the Federal Home Loan Mortgage Corporation
                  (“Freddie Mac”). GAO reported that half of the servicers it sampled had a
                  20% error rate in listing borrowers’ income. COP characterized problems with
                  the NPV test as evidence of eligible borrowers incorrectly being denied HAMP
                  modifications. GAO similarly reported that “this lack of compliance likely
                  resulted in differences in how borrowers were evaluated, and could have resulted
                  in the inequitable treatment of similarly situated borrowers.”

                  SIGTARP’s most recent analysis from its sample identified concerns with the
                  NPV test that may stand as barriers to homeowners getting much-needed help
                  from HAMP. One concern can be easily fixed, though others require greater
                  compliance and enforcement by Treasury:

                      Treasury’s practice of protecting investors by allowing them to add a “risk
                      premium” to the NPV test calculation: SIGTARP found in its sample that the
                      discretion that Treasury gave to servicers to override the baseline discount rate
                      in the NPV test by adding a risk premium (of up to 2.5%) reduces the number
                      of otherwise qualified homeowners Treasury helps through HAMP.
                      According to Treasury, the addition of the risk premium reflects an additional
                      cost that investors may face in modifying and continuing to carry mortgages at
                      risk of default. Only 4 servicers add a risk premium, down from 11 in 2010.
                      More than 100 servicers do not add a risk premium. In a SIGTARP analysis
                      of a sample of 51 denied HAMP applications, SIGTARP found that if the
                      servicer had not used a risk premium, more than half (27) of the homeowners
                      in SIGTARP’s sample would have tested positive in the NPV test (which
                      would require the servicer to offer a HAMP modification).




SIGTARP 12-003                                                                                June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                    17




                            The fact that more than 100 servicers do not find it necessary to add a risk
                            premium suggests that the four servicers that do can put an end to this
                            practice, which protects the investors at the expense of homeowners. Of the
                            three largest HAMP servicers, only Bank of America, NA (“Bank of
                            America”) and Wells Fargo Bank, NA (“Wells Fargo”) use a risk premium,
                            both choosing to use the maximum 2.5%. Bank of America justified its risk
                            premium to SIGTARP by saying that investors wanted a higher discount rate.
                            The third-largest servicer, JPMorgan Chase Bank, NA (“JPMorgan”), told
                            SIGTARP that it initially used the maximum risk premium because HAMP
                            was new and had no performance results, but discontinued it because servicers
                            and investors became more comfortable with HAMP over time and it wanted
                            to align its practices with the Federal National Mortgage Association (“Fannie
                            Mae”) and Freddie Mac, which do not use a risk premium. There is a simple
                            fix for Treasury to remove this obstacle to homeowners getting into HAMP –
                            tell servicers that risk premiums are no longer allowed.

                            Errors Inputting Homeowner Information and Failure To Maintain
                            Documentation in SIGTARP’s Sample: Any model will be only as good as its
                            inputs. SIGTARP found in its sample that servicers made errors using
                            NPV inputs and did not properly maintain records of all NPV inputs during
                            the period of our review. Within SIGTARP’s judgmental sample of 149
                            HAMP applications, SIGTARP found that the servicers could provide both
                            accurate inputs and documentation for only two HAMP applications.21
                            SIGTARP found that servicers failed to comply with HAMP guidelines on
                            maintaining records on NPV inputs, which is crucial for compliance and to
                            protect homeowners’ rights to challenge servicer error. For 19 denied HAMP
                            applicants, the servicer was not able to provide all of the inputs used in the
                            NPV test. In some instances where there was documentation, it did not
                            support the NPV inputs the servicer used. For 149 denied HAMP
                            applications, SIGTARP found that approximately 19% of the inputs were
                            either entered incorrectly or could not be supported by the servicers’ records.
                            Because of the servicers’ failure to maintain documentation of the NPV
                            inputs, SIGTARP was unable to determine how many homeowners from its
                            sample may have been wrongly denied a HAMP modification.

                            Errors in Calculating Homeowner Gross Income and in Other Areas in
                            SIGTARP’s Sample: In 2010, GAO found that servicers’ error rates for
                            calculating gross income were well above the servicers’ own established error
                            rate thresholds, which were typically 3% to 5%. In 2010 and 2011, SIGTARP
                            also found servicer errors or lack of documentation in calculating the
                            homeowner’s gross income, which is a key input in the NPV test. SIGTARP
                            also found errors in its sample related to credit scores, principal forgiveness,

21
     SIGTARP’s sample consisted of 149 HAMP applications reviewed by 3 of the 10 largest servicers: Ocwen, Wells
     Fargo, and GMAC Mortgage.




SIGTARP 12-003                                                                                            June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                      18




                      dates of NPV tests, unpaid principal balance, amortization, principal and
                      interest after modification, and the type of property valuation used. The
                      extent to which servicers use incorrect data increases the risk of an improper
                      decision to an unacceptable level. When servicers use erroneous information
                      in the NPV test, homeowners may pay the price by being denied help under
                      HAMP and ultimately may lose their homes.

                      Poor Communication with Homeowners on Denial of HAMP Modifications in
                      SIGTARP’s Sample: In its sample, SIGTARP also found that servicers had
                      poor communication with homeowners on the denial of a HAMP modification
                      due to the NPV test. SIGTARP reviewed a sample of 26 denial letters sent by
                      GMAC Mortgage, LLC (“GMAC Mortgage”), Ocwen Loan Servicing, LLC
                      (“Ocwen”), and Wells Fargo, and found that all but 2 of the letters failed to
                      comply with at least 1 requirement of HAMP guidelines. Wells Fargo sent
                      denial letters to 4 homeowners between 32 and 147 business days (69 days on
                      average) after its decision, well past the 10-day requirement. Six denial letters
                      failed to list certain NPV inputs, which has serious consequences because
                      without the inputs, homeowners cannot use the web-based NPV calculator
                      required by Congress and specifically designed to allow homeowners to
                      challenge their servicer about errors. Treasury told SIGTARP that it has
                      recently made improvements in that area, according to a December 2011
                      sample of four large servicers.

                  SIGTARP’s findings of servicer errors with the NPV test and failure to comply
                  with HAMP guidelines in its sample raise serious questions about the
                  effectiveness of Treasury’s oversight of servicers. In March 2010, SIGTARP
                  recommended that Treasury set performance benchmarks and publicly report on
                  them to measure HAMP implementation and success. Despite this call for
                  accountability on the part of servicers, Treasury did not release information on
                  reviews of the 10 largest servicers until June 2011, more than 2 years after HAMP
                  was launched. The results showed that four needed substantial improvement and
                  the other six needed moderate improvement.

                  Treasury also monitors servicer progress through its Making Home Affordable
                  Compliance Committee meetings. According to Treasury, Freddie Mac briefs the
                  committee on the status of the servicers in correcting issues. However, Treasury
                  was unable to provide documentation of determination of appropriate action on
                  significant delays or issues with a servicer’s remediation efforts.

                  There were also issues with seven servicers in Freddie Mac’s second look
                  reviews. For a sample of at least 100 loans per servicer, Freddie Mac examines
                  the reason why a borrower was denied a HAMP modification and determines
                  whether it agrees. In June 2011, Treasury published first quarter 2011 data
                  showing that 3 of the 10 largest HAMP servicers ranked poorly in the second look
                  reviews, meaning that homeowners were wrongly denied modifications, and
                  4 servicers had an unacceptable number of cases where Freddie Mac was unable


SIGTARP 12-003                                                                                June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                    19




                  to determine how the servicer reached the decision not to offer a permanent
                  modification. Treasury also found that all 10 of the largest servicers used
                  erroneous gross income amounts when evaluating borrowers for HAMP, with
                  6% error rates to 33% error rates.

                  Despite the poor servicer assessments announced in June 2011, more than two
                  years into HAMP, Treasury has never permanently withheld any TARP payments
                  or clawed back any TARP payments to servicers. Greater transparency over
                  HAMP servicers since the June 2011 servicer assessments has led to some
                  improvements, although more transparency is needed. For example, according to
                  the most recent assessments, three servicers still have gross income error rates of
                  6% to 10%, exceeding both Treasury’s benchmark of 5% and the servicers’ own
                  benchmarks. Gross income is a crucial input in the NPV test. Treasury’s failure
                  to establish benchmarks and publicly report on them prior to June 2011 represents
                  a lost opportunity to make improvements earlier in servicer compliance. Greater
                  improvement in servicers’ compliance is a key to homeowners getting help
                  through HAMP. Treasury must be more rigorous in its compliance and
                  enforcement (including permanently withholding TARP payments) against
                  servicers that fail to follow HAMP guidelines.




SIGTARP 12-003                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                    20




                  Recommendations
                  1. Treasury should stop allowing servicers to add a risk premium to
                     Freddie Mac’s discount rate in HAMP’s net present value test.

                  2. Treasury should ensure that servicers use accurate information when
                     evaluating net present value test results for homeowners applying to HAMP
                     and should ensure that servicers maintain documentation of all net present
                     value test inputs. To the extent that a servicer does not follow Treasury’s
                     guidelines on input accuracy and documentation maintenance, Treasury
                     should permanently withhold incentives from that servicer.

                  3. Treasury should require servicers to improve their communication with
                     homeowners regarding denial of a HAMP modification so that homeowners
                     can move forward with other foreclosure alternatives in a timely and fully
                     informed manner. To the extent that a servicer does not follow Treasury’s
                     guidelines on these communications, Treasury should permanently withhold
                     incentives from that servicer.

                  4. Treasury should ensure that more detail is captured by the Making Home
                     Affordable Compliance Committee meeting minutes regarding the substance
                     of discussions related to compliance efforts on servicers in HAMP. Treasury
                     should make sure that minutes clearly outline the specific problems
                     encountered by servicers, remedial options discussed, and any requisite
                     actions taken to remedy the situation.




SIGTARP 12-003                                                                            June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                      21




                  Management Comments and
                  SIGTARP’s Response
                  Treasury provided an official written response to this report in a letter dated
                  June 15, 2012, which is reproduced in full in Appendix E. Treasury disagreed
                  with the findings in our report. Treasury responded that SIGTARP’s sample of
                  149 HAMP applications was too small, from too few servicers, and not recent
                  enough to be representative of current operations. Treasury stated that use of a
                  risk premium is traditional in expected cash flow modeling. Treasury said it
                  would discuss the recommendations with SIGTARP.

                  SIGTARP’s audit was conducted in accordance with Generally Accepted
                  Government Auditing Standards (“GAGAS”). GAGAS 7.63 provides that “when
                  sampling is used, the method of selection that is appropriate will depend on the
                  audit objectives” and that “a targeted selection may be effective if the auditors
                  have isolated certain risk factors or other criteria to target the selection.” As
                  required by GAGAS 7.63, SIGTARP made a targeted selection after isolating
                  certain risk factors and other criteria. As stated in the report, SIGTARP selected
                  its judgmental sample from 3 of the 10 largest servicers, based on servicing
                  portfolio size, SIGTARP Hotline complaints, amount of eligible incentives
                  available to each servicer through HAMP, and other factors. SIGTARP validated
                  more than 5,000 inputs that were used for the loans to determine the potential
                  impact on the NPV decision. SIGTARP’s report is not based solely on the
                  targeted sample, but on all information gathered. Sampling serves to validate
                  information and conclusions reached by SIGTARP during interviews and other
                  research as clearly set forth in detail in Appendix A. This includes that SIGTARP
                  compared its targeted sample results to information found in Treasury’s service
                  assessments, including one from March 2012, that found that some servicers are
                  showing signs of improvement, but seven servicers still need moderate
                  improvement in their compliance and that three servicers continue to have
                  unacceptable gross income error rates. As such, SIGTARP recommended that to
                  the extent a servicer does not comply with Treasury’s guidelines, Treasury should
                  permanently withhold incentives from that servicer.

                  As to the risk premium, 96% of the servicers do not add a risk premium. Only
                  four servicers add a risk premium. The third-largest servicer, JPMorgan,
                  discontinued the practice because investors became comfortable with HAMP.
                  SIGTARP recommended that, based on this and other data, and the potential that
                  this risk premium could result in negative NPV scores, Treasury should
                  discontinue allowing a risk premium.




SIGTARP 12-003                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                    22




Appendix A ‒ Scope and Methodology

We performed this audit under the authority of Public Law 110-343, as amended, which also incorporates
the duties and responsibilities of inspectors general under the Inspector General Act of 1978, as amended.
The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) initiated
this audit in response to a letter dated March 10, 2010, from Senator Jeff Merkley and eight other senators.22
Our audit objectives were to determine:

     whether the mortgage servicers correctly applied the net present value (“NPV”) test23 under the
     Home Affordable Modification Program (“HAMP”);
     the extent to which the U.S. Department of the Treasury (“Treasury”) ensured that servicers
     appropriately applied the NPV test per HAMP guidelines when they assessed homeowners for
     program eligibility; and
     the procedures servicers followed to communicate to homeowners the reasons they were denied
     HAMP mortgage modifications, as well as to identify the full range of loss mitigation options
     then available to those homeowners.

We conducted our audit work at Treasury’s Office of Financial Stability in Washington, D.C., Fannie Mae
headquarters in Washington, D.C., Freddie Mac headquarters in McLean, Virginia, and the offices of three
mortgage servicers: Ocwen, in West Palm Beach, Florida; Wells Fargo in Des Moines, Iowa; and GMAC
Mortgage in Waterloo, Iowa. The scope of this audit covered both privately owned mortgages and Fannie
Mae- and Freddie Mac-owned mortgages that were serviced by HAMP servicers.

To determine the extent to which servicers correctly applied the NPV test, we assessed the accuracy of the
servicers’ decisions to grant or deny HAMP mortgage modifications by verifying the accuracy of
information servicers entered into the NPV model24 (“NPV inputs”) and re-performed the NPV test, but we
did not validate the NPV model directly. We judgmentally selected the sample of three servicers based on
servicing portfolio size; amount of eligible incentives available to each servicer through HAMP, SIGTARP
Hotline complaints, and other factors.25 We then judgmentally sampled a total of 50 mortgages from each
servicer based on a cross section of loans according to factors including geographic location, date the NPV
test was run, and amount of unpaid principal balance. In addition, we reviewed eight Congressional
constituent complaints. Our sample totaled 158 mortgages that were evaluated for HAMP by these servicers
between August 4, 2009, and January 13, 2011. We tested 149 of the 158 sampled mortgages because
necessary documentation was not available for 5, 3 of the constituents referred to us were not eligible under
the program, and the servicers never evaluated the HAMP eligibility of 1 constituent’s mortgage (but the
constituent later received a proprietary mortgage modification).


22
   The other senators were Richard Durbin, Jack Reed, Herb Kohl, Sherrod Brown, Russell Feingold, Sheldon
   Whitehouse, Mark Begich, and Maria Cantwell.
23
   A full explanation of the NPV test and its importance in determining homeowner eligibility for HAMP mortgage
   modifications is included in the Introduction of this report, on p. 1.
24
   For more information on the NPV model and NPV test, see Appendix B – The Home Affordable Modification
   Program’s Net Present Value Model.
25
   Results from a judgmental sample cannot be projected to the universe of data from which the sample was drawn.




SIGTARP 12-003                                                                                              June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                      23




We examined supporting documentation for the selected NPV inputs for all mortgages tested to ensure that
the inputs used by the servicers in the NPV test were accurate. We validated 36 of the 44 inputs for each
mortgage tested, resulting in a total of 5,364 inputs tested. These inputs were judgmentally selected based
on the potential impact that they would have on the NPV decision. The remaining inputs such as “HAMP
servicer number” and “remaining term” were not validated because they have a lesser impact on the NPV
decision. For the gross income NPV input, we recalculated each borrower's monthly gross income based on
supporting documentation in accordance with program guidance and servicers’ own policies and procedures
for calculating gross income. We also consulted with Freddie Mac for guidance on the gross income
calculations.

To analyze how a reduction in the discount risk rate premium from 2.5% to 0% (in increments of 0.5%)
would affect each borrower’s NPV result, we submitted for testing all private loans in our sample using
inputs based on servicer documentation to Treasury’s online NPV test, holding constant all inputs other than
the risk premium. No GMAC Mortgage-serviced mortgages were retested because GMAC Mortgage does
not add a risk premium. From the original sample of 50 Ocwen mortgages, 8 were excluded from testing
because necessary documentation was missing from the servicer’s files, 2 were excluded because they were
owned by Fannie Mae or Freddie Mac, 4 failed to return an NPV value, and 1 loan returned a positive NPV
value, leaving 35 Ocwen mortgages that were tested. In addition to the original sample of 50 mortgages
serviced by Wells Fargo, all constituent mortgages we reviewed were also serviced by Wells Fargo. From
the 58 mortgages we sampled, 18 were excluded from testing because necessary documentation was missing
from the servicer’s files, 13 were excluded because they were owned by Fannie Mae or Freddie Mac,
5 failed to return an NPV value, and 6 returned a positive NPV value, leaving 16 Wells Fargo mortgages
that were tested. In total we tested all 51 loans that returned a negative NPV result – 35 from Ocwen and
16 from Wells Fargo – and all 51 were analyzed at each risk premium increment. We also surveyed seven
servicers for their rationale for choosing a risk premium, as well as their analysis to support their decision.
The seven servicers were GMAC Mortgage, Ocwen, Wells Fargo, Bank of America, CCO Mortgage,
JPMorgan, and Saxon Mortgage Services, Inc. (“Saxon”).

To gain an understanding of the NPV model and its proper application, we interviewed officials from
Treasury, the mortgage servicers, industry groups, Fannie Mae, Freddie Mac, the Federal Deposit Insurance
Corporation, and the Federal Housing Finance Agency, and we received a demonstration of Treasury’s base
model from Fannie Mae. We interviewed Fannie Mae on its role in the creation of the NPV model and the
NPV model’s mechanics. We also collected Treasury’s HAMP guidance, policies and procedures from the
three sampled servicers, the Emergency Economic Stabilization Act of 2008, the Helping Families Save
Their Homes Act of 2009, and relevant Treasury white papers providing additional guidance to servicers on
the NPV test. We also obtained from Treasury feedback that it had received from servicers and industry
groups on the NPV model, version 4.0.

To determine the extent to which Treasury ensures that servicers are appropriately applying the NPV test
per HAMP guidelines when assessing borrower program eligibility, we conducted interviews with Treasury
officials, Fannie Mae, Freddie Mac, and three servicers. We also reviewed Treasury’s policies and
procedures as well as the audit program that Freddie Mac uses to assess servicer compliance and associated
workpapers, servicer participation agreements, Treasury guidance on HAMP, Treasury’s financial agent
oversight policy, and sections of the Financial Agency Agreement between Treasury and Freddie Mac that
were pertinent to the NPV test. In addition, we reviewed communications sent by Freddie Mac to servicers
notifying them of issues that Freddie Mac had identified, as well as Treasury’s Making Home Affordable


SIGTARP 12-003                                                                                June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                      24




Compliance Committee meeting minutes for October 2009 to March 2012, showing what actions, if any,
have been taken to address these issues.

To determine the procedures used by servicers to communicate to borrowers the reasons they were denied
HAMP mortgage modifications and their full range of loss mitigation options, we selected half of the
original sample of 50 loans from each servicer for further detailed testing. In total, we tested 26 mortgages
after excluding loans owned by Fannie Mae and Freddie Mac and those loans that were evaluated for
HAMP by the sampled servicers before January 1, 2010, when Treasury issued guidance on denial
communications. Our scope for this objective focused on whether servicer denial communications to
borrowers complied with Treasury’s guidance. In addition, we reviewed Treasury’s guidance, discussed
with servicers their policies and procedures for handling HAMP denials, and reviewed servicers’ mortgage
documentation supporting foreclosure alternatives.

We conducted this performance audit from March 2010 through May 2012, and in accordance with
generally accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides reasonable basis
for our findings and conclusions based on our audit objectives.

Limitations on Data
We obtained servicer populations of mortgages that were evaluated for HAMP, and the NPV test date and
final NPV decision for each mortgage. We also obtained data provided by Fannie Mae to report on the
status of modifications and the NPV inputs used. While we validated the accuracy of the NPV inputs in our
sample using the steps described in the scope and methodology outlined above, we could not verify the
completeness of the data provided by the servicers or Fannie Mae because we did not have direct access to
extract the data from their systems. In addition, we could not independently confirm the total number of
mortgages evaluated for HAMP by each servicer.

Use of Computer-Processed Data
To perform this audit, we used data provided by Fannie Mae and the servicers on the status of modifications
and the NPV inputs used. While we could not validate the completeness of the data (see explanation in the
“Limitations on Data” section), we verified the accuracy of the data in our sample by obtaining related
mortgage documentation. In addition, the NPV model has edits to prevent servicers from submitting data
outside the range limit of the model. Those edits provide some assurance of the reasonableness of the data,
but do not attest to the accuracy of the data submitted to the model. Accordingly, we did not rely on the
model’s edits.




SIGTARP 12-003                                                                                June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                       25




Internal Controls
We reviewed internal controls over the accuracy of data used in the NPV test by comparing servicers’ inputs
to mortgage-related source documentation. We also reviewed Treasury and the sampled servicers’ controls
over communications to borrowers by assessing Treasury guidelines and testing servicer compliance with
those guidelines, specifically on timeliness, reason for denial, description of foreclosure alternatives and, if
the loan was denied for a negative NPV, did each letter include a list of inputs and a statement that the
borrower may request the date the NPV calculation was completed and values used for those inputs.

Prior Coverage
Government Accountability Office, Report No. 11-288, “Troubled Asset Relief Program: Treasury
  Continues to Face Implementation Challenges and Data Weaknesses in Its Making Home
  Affordable Program,” March 17, 2011

Congressional Oversight Panel, “Examining the Consequences of Mortgage Irregularities for
  Financial Stability and Foreclosure Mitigation,” November 16, 2010

Government Accountability Office, Report No. 10-634, “Troubled Asset Relief Program: Further
  Actions Needed to Fully and Equitably Implement Foreclosure Mitigation Programs,”
  June 24, 2010

Congressional Oversight Panel, “Evaluating Progress on TARP Foreclosure Mitigation Programs,”
  April 14, 2010

SIGTARP, Report No. 10-005, “Factors Affecting Implementation of the Home Affordable
  Modification Program,” March 25, 2010

Congressional Oversight Panel, “Taking Stock: What Has the Troubled Asset Relief Program
  Achieved?,” December 9, 2009

Government Accountability Office, Report No. 10-301, “Office of Financial Stability (Troubled
  Asset Relief Program) Fiscal Year 2009 Financial Statements,” December 9, 2009

Congressional Oversight Panel, “An Assessment of Foreclosure Mitigation Efforts after Six
  Months,” October 9, 2009

Government Accountability Office, Report No. 10-16, “Troubled Asset Relief Program: One Year
 Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,”
 October 8, 2009

Government Accountability Office, Report No. 09-837, “Troubled Asset Relief Program: Treasury
  Actions Needed to Make the Home Affordable Modification Program More Transparent and
  Accountable,” July 23, 2009

Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” March 6, 2009




SIGTARP 12-003                                                                                 June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                                        26




Appendix B – The Home Affordable Modification Program’s
             Net Present Value Model
On March 4, 2009, Treasury issued guidelines that introduced its NPV model and explained how the model
should be used to evaluate borrowers requesting a modification to their mortgage under HAMP. The model
includes both a net present value test component (“NPV test”) and a tool that checks the reasonableness of
the terms the servicer used when applying the HAMP modification waterfall (“waterfall check”).

For privately owned mortgages, the NPV test determines whether a servicer participating in HAMP is
required to offer the borrower a HAMP mortgage modification. The model compares the net present value
of cash flows expected from a modified mortgage to the net present value of cash flows expected if the
mortgage is not modified. If the value of the cash flows is greater with a mortgage modification than
without, the servicer is required to offer a HAMP modification to the borrower. Otherwise, a HAMP
modification is optional.

For mortgages owned or guaranteed by Fannie Mae and Freddie Mac, servicers are required to offer a trial
modification under HAMP when the difference in the cash flows is positive as well as when the difference
in net present values of cash flows is negative – as long as the difference is negative by less than $5,000.26
In other words, even if the NPV test indicates that a modified mortgage would cost Fannie Mae or Freddie
Mac up to $5,000 more than foreclosure, the servicer must still offer the modification.

The NPV model also has a waterfall check. HAMP servicers are required to modify certain aspects of a
borrower’s mortgage in the order outlined below, called a waterfall, until the borrower’s debt-to-income
ratio reaches 31% without going below 31%.27 The reasonableness of the data used by the servicer to apply
the waterfall is assessed by the model, although the model’s guidance states that the servicer is responsible
for verifying a borrower’s program eligibility and modification terms. The waterfall steps are:

     First, the servicer calculates the current debt-to-income ratio based on the current mortgage payment and
     gross monthly income.
     Second, the servicer capitalizes any unpaid interest and fees28 (that is, the servicer adds them to the
     outstanding principal balance).
     Third, the servicer reduces the interest rate in incremental steps to as low as 2%.
     Fourth, if the 31% threshold has still not been reached, the servicer extends the term of the mortgage to a
     maximum of 40 years from the modification date.

If the four steps do not reduce the borrower’s debt-to-income ratio to the 31% threshold, the servicer may
allow a borrower to defer, or forbear, principal payments, subject to certain limits. The forbearance amount

26
   According to Fannie Mae, the mandatory mortgage modification threshold of $5,000 in negative cash flows went into
   effect on December 1, 2009.
27
   Under Treasury guidelines, there is no restriction on reducing the debt-to-income ratio below 31%, but the portion of
   the reduction below 31% will not be reimbursed by Treasury. The 31% debt-to-income ratio level was chosen
   because Treasury considers it to be the standard across the industry for an affordable and sustainable modification.
   This standard is also a Federal Housing Administration underwriting target.
28
   Late fees are not capitalized.




SIGTARP 12-003                                                                                                 June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                     27




is not interest bearing and results in a lump-sum payment due upon the earliest of the sale date of the
property, the payoff date of the interest-bearing mortgage balance, or the maturity date of the mortgage.

Servicers are not required to forgive principal under HAMP. However, servicers may forgive principal in
order to lower the borrower’s monthly payment to achieve the debt-to-income ratio goal of 31% on a stand-
alone basis or before any of the other HAMP modification steps described above.




SIGTARP 12-003                                                                               June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                  28




Appendix C ‒ Acronyms and Abbreviations
Acronym or
Abbreviation          Definition

Bank of America       Bank of America, NA
CCO Mortgage          CCO Mortgage, a division of RBS Citizens, NA
COP                   Congressional Oversight Panel
Dodd-Frank Act        Dodd-Frank Wall Street Reform and Consumer Protection Act
Fannie Mae            Federal National Mortgage Association
Freddie Mac           Federal Home Loan Mortgage Corporation
GAO                   Government Accountability Office
GMAC Mortgage         GMAC Mortgage, LLC
HAMP                  Home Affordable Modification Program
HPO                   Homeownership Preservation Office
JPMorgan              JPMorgan Chase Bank, NA
LLC                   Limited Liability Corporation
NA                    National Association
NPV                   Net present value
Ocwen                 Ocwen Loan Servicing, LLC
Saxon                 Saxon Mortgage Services, Inc.
SIGTARP               Office of the Special Inspector General for the Troubled Asset Relief Program
TARP                  Troubled Asset Relief Program
Treasury              U.S. Department of the Treasury
Wells Fargo           Wells Fargo Bank, NA




SIGTARP 12-003                                                                             June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM                 29




Appendix D ‒ Audit Team Members
This audit was conducted and the report was prepared under the direction of Kurt W. Hyde, Deputy Special
Inspector General for Audit and Evaluation, and Kimberley A. Caprio, Assistant Deputy Special Inspector
General for Audit and Evaluation, Office of the Special Inspector General for the Troubled Asset Relief
Program.

Staff members who conducted the audit and contributed to the report include Patrice Wilson, Lindsay
Steward, Philip Mastandrea, Andrew Lopresti, Clayton Boyce, and Cynthia Broome.




SIGTARP 12-003                                                                            June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         30




Appendix E ‒ Management Comments




SIGTARP 12-003                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         31




SIGTARP 12-003                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         32




SIGTARP 12-003                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         33




SIGTARP 12-003                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         34




SIGTARP 12-003                                                                    June 18, 2012
THE NET PRESENT VALUE TEST’S IMPACT ON THE HOME AFFORDABLE MODIFICATION PROGRAM         35




SIGTARP 12-003                                                                    June 18, 2012
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the Troubled
Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form : www.SIGTARP.gov
   U            U   U                     U                        By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                  Hotline: Office of the Special Inspector General
                          for the Troubled Asset Relief Program
                          1801 L Street., NW, 3rd Floor
                          Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                                   Troy Gravitt
                                                                   Director of Communications
                                                                   Troy.Gravitt@treasury.gov
                                                                   202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                                     Joseph Cwiklinski
                                                                     Director of Legislative Affairs
                                                                     Joseph.Cwiklinski@treasury.gov
                                                                     202-927-9159

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov .
                                                                          U                    U




SIGTARP 12-003                                                                                         June 18, 2012
